U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 27, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

American Bankers Ass'n v. National Credit Union Admin., No. 19-11 15

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 11,
2020. The government's response is now due, after one extension, on May 11, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 26, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1115
AMERICA BANKERS ASSOCIATION
NATIONAL CREDIT UNION ADMINISTRATION

JOHN C. EASTMAN
THE CLAREMONT INSTITUTE CENTER FOR
CONSTITUTIONAL JURISPRUNCE
CHAPMAN UNIVERSITY
DALE E. FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
JEASTMAN@CHAPMAN.EDU
FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
STEVEN D. GORDON
HOLLAND & KNIGT, LLP
800 - 17TH ST. N.W.
STE. 1100
WASHINGTON, DC 20006
202-95 5-3000
STEVEN. GORDON@HKLA W. COM

RAYMOND J. LAJEUNESSE
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD,
SUITE 600
SPRINGFIELD , VA 22160
703-321-8510
RJL@MTW. ORG
ROBERT A. LONG, JR.
COV1NGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-6000
RLONG@COV.COM
JULIE JOHNSON MCLEAN
DAVIS BROWN LAW FIRM
215 10TH STREET
SUITE 1300
DES MOINES, IA 50309
515-288-2500
JULIEMCLEAN@DAVISBROWNLAW.COM
GLENN E. ROPER
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
GEROPER@PACIFICLEGAL.ORG

